Audit of Awarding and Monitoring of Grants by
the African Development Foundation

Audit Report Number 9-ADF-03-005-P
February 28, 2003




                    Washington, DC

February 28, 2003


MEMORANDUM
FOR:          ADF President, Nathaniel Fields

FROM:         IG/A/PA, Dianne L. Rawl /s/

SUBJECT:      Audit of the Awarding and Monitoring of Grants by the
              African Development Foundation (Report No. 9-ADF-03­
              005-P)

This memorandum is our final report on the subject audit. In finalizing the
report, we considered your comments on our draft report and have included
this response as Appendix II.

This report includes eleven procedural recommendations. In your written
comments, you concurred with these recommendations and identified
planned or completed actions to address our concerns. Consequently, we
consider all recommendations to have received a management decision. The
Foundation’s audit committee must determine final action on these
recommendations, and we ask that we be notified of the audit committee’s
actions.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.
    This Page Intentionally Blank




2
Table of   Summary of Results                                                        5
Contents
           Background                                                                7

           Audit Objectives                                                          7

           Audit Findings                                                            9

                  Did the African Development Foundation award grants
                  in accordance with Foundation policies and procedures?             9

                         ADF Needs to Validate Economic
                         Assumptions Prior to Grant Approval                         9

                         ADF Needs to Ensure That Environmental
                         Reviews Are Completed                                       14

                  Did the African Development Foundation implement
                  a system to monitor grantee projects and obtain project results?   16

                         ADF Needs to Improve Monitoring of
                         Progress Toward Objectives                                  16

                         ADF Needs to Improve Results Reporting by Grantees          22

                  Did the African Development Foundation implement a
                  system to audit funds provided to grantees?                        24

                         ADF Needs to Improve the Audit Universe,
                         Audit Selection Process, and Audit Timing                   25

                         ADF Needs to Monitor the Quality of Grantee Audits          27

                         ADF Needs to Improve Audits of In-Country Partners          30

                         ADF Needs to Improve Its Audit
                         Recommendation Tracking Process                             31

           Management Comments and Our Evaluation                                    35

           Appendix I - Scope and Methodology                                        37

           Appendix II - Management Comments                                         41

                                                                                         3
    This Page Intentionally Blank




4
             The African Development Foundation (ADF) did not always evaluate and
Summary of   select grant proposals for funding in accordance with its internal policies and
Results      procedures. For 10 of the 18 projects reviewed, ADF did not have clear
             economic justification for proposed enterprises or used unsupported data that
             may have overstated their potential profitability. As a result, some of the 10
             projects may prove to be unsustainable after the completion of their grant
             periods. In addition, although ADF policy required that a comprehensive
             environmental assessment be conducted before projects were approved, we
             identified three projects that did not meet this standard. When projects do
             not receive a full environmental assessment, there is an increased risk that the
             projects could contribute to environmental problems. (See pages 9 through
             15.)

             During fiscal year 2001, ADF did not implement an effective system to monitor
             its projects and obtain project results. ADF records indicated that the
             Foundation’s Country Liaison Offices (CLO) staff did not complete the
             recommended number of monitoring visits to each project. Also, contrary to
             ADF procedures, monitoring reports often did not indicate the progress grantees
             had made toward achieving each grant objective, and usually did not document
             steps needed to resolve issues that may be impeding project success. In
             addition, progress reports submitted by grantees did not always include accurate
             and useful information about cumulative progress against the baseline, annual
             or end-of-project objectives. ADF officials noted that monitoring activities had
             been hampered by the Foundation’s reorganization efforts during fiscal year
             2001. As a result, during the period covered by this audit, the Foundation could
             not reliably determine if its programs were meeting objectives and would
             become sustainable. (See pages 15 through 24.)

             ADF did not implement an effective system to audit funds provided to
             grantees. While ADF selected local accounting firms in accordance with
             Foundation policy, the firms did not always incorporate all required work
             steps in their programs and did not perform, or did not properly document,
             several important accountability checks. Contrary to ADF policy, the ADF
             Internal Auditor did not conduct audits of the funds provided to CLOs in
             accordance with Government Auditing Standards or as often as required by
             ADF policy. Furthermore, ADF did not have a process that ensured that all
             significant audit recommendations were tracked and implemented. As a
             result, the audits provided limited assurance that grant funds were being used
             for intended purposes. (See pages 24 through 34.)

             In it response to our draft report, ADF concurred with our recommendations
             and described the actions the Foundation has planned or undertaken to
             address our concerns. When fully implemented, these actions should


                                                                                            5
    significantly improve the Foundation’s selection, monitoring and audit
    processes. (See page 35.)




6
 Background
         The African Development Foundation (ADF) is a U.S. Government
                     corporation established by Congress in 1980. ADF is authorized to award
                     grants, loans, and loan guarantees to African private or public groups,
                     associations, or other entities engaged in peaceful activities. ADF’s
                     appropriation for fiscal year 2002 was $16.5 million. Over the last 18 years,
                     ADF has funded over 1300 activities in 34 African countries.

                     One of ADF’s primary goals is to advance broad-based, sustainable
                     development and the empowerment of the poor in Africa. ADF pursues this
                     objective, in part, by providing (1) grants to small enterprises that can
                     generate income and employment, and (2) grants to micro-finance
                     institutions to increase the flow of investment capital to the poor.

                     During the period covered by the audit, ADF maintained a local office,
                     staffed with African professionals, in each of the countries in which it
                     operated. These offices, called Country Liaison Offices (CLOs), developed
                     new grants and monitored funded projects. ADF has since replaced its CLOs
                     with new organizations (called Partners) that provide technical assistance to
                     grantees, including assistance with project monitoring. Although our review
                     examined CLO activities during fiscal year 2001, our findings and
                     recommendations are also valid for the new Partner organizations.

                     In November 1999, Public Law 106-113 amended the responsibilities of the
                     USAID Inspector General, under Section 8A(a) of the Inspector General Act
                     of 1978, to include audit responsibility for ADF. This audit represents the
                     first audit of ADF field activities, completed as part a comprehensive strategy
                     by the Office of the Inspector General (OIG) to maintain effective oversight
                     of ADF operations.




Audit Objectives
 We designed the audit to answer the following questions:

                     •	 Did the African Development Foundation award grants in
                        accordance with Foundation policies and procedures?

                     •	 Did the African Development Foundation implement a system to
                        monitor grantee projects and obtain project results?

                     •	   Did the African Development Foundation implement a system to
                          audit funds provided to grantees?

                                                                                                     7
    This audit was performed as part of the OIG’s fiscal year 2002 audit plan. The
    audit covered 18 projects in four of the countries where ADF had active
    projects—Benin, Senegal, Uganda, and Tanzania. See Appendix I for more
    information about the scope and methodology for this audit.




8
Audit Findings
 Did the African Development Foundation award grants in accordance with
                  Foundation policies and procedures?

                  The African Development Foundation (ADF) did not always evaluate and
                  select grant proposals for funding in accordance with its internal policies and
                  procedures. ADF policies and procedures required that the Foundation use
                  sound analyses, including analyses of the economic environment (e.g., price,
                  market demand, competition, and group production capabilities), and cash
                  flow projections before approving proposed enterprise projects. This
                  guidance, however, was not consistently applied. For 10 of the 18 projects
                  reviewed, ADF did not have clearly stated economic justifications or used
                  unsupported data that may have overstated the potential profitability and
                  sustainability of proposed enterprise projects.

                  According to ADF officials, most of the 10 projects had been developed and
                  reviewed by ADF staff members who did not have sufficient training in
                  economics and marketing. Furthermore, at that time, the Foundation was
                  focused more on social impact than on business concerns. Because of the
                  inadequate review process, some of the 10 projects may be unsustainable
                  when the ADF grant ends.

                  In addition, although ADF policy required that a comprehensive
                  environmental assessment be conducted before projects were approved, 3 of
                  the 18 projects reviewed did not meet this standard. ADF officials attributed
                  this to staff oversight during document preparation. When environmental
                  analyses are not completed and evaluated, there is risk that the affected
                  projects could create environmental hazards.

                  ADF Needs to Validate Economic
                  Assumptions Prior to Grant Approval

                  ADF’s grant approval process generally started with proposals submitted by
                  grant applicants to a Country Liaison Office (CLO).1 Once a group
                  submitted a proposal, the CLO verified background information about its
                  history and capabilities. In addition, the CLO performed an initial
                  assessment of each new proposal to determine its viability based on
                  economic, technical, environmental and managerial factors.



                  1
                    According to ADF policy, groups requesting funds were required to be legal entities with
                  the rudimentary skills to undertake the proposed project, unless the project was a logical
                  outgrowth of the group’s current or past activities.

                                                                                                               9
     ADF’s Regional Managers evaluated project proposals recommended by the
     CLO and determined if the information provided was adequate and if the
     proposed projects appeared financially sound. They also ensured that (1) the
     findings of ADF-required analyses were valid, (2) sound financial analyses
     and projections had been used, (3) the economic environment (market
     demand, competition, and group production capabilities) had been
     appropriately analyzed, and (4) reasonable economic assumptions were
     clearly stated.

     When the Foundation’s Washington–based country team (Regional Director
     and Regional Managers) judged that a proposed project met ADF’s basic
     selection criteria, the project was then reviewed and evaluated by the Project
     Discussion Group (PDG), composed of the Foundation’s senior managers.
     PDG concerns were to be included in a memo returned to the country team
     and the CLO. The Regional Director was responsible for determining that all
     PDG issues had been appropriately addressed before projects were
     recommended for funding.

     For 10 of the 18 projects reviewed, ADF did not ensure that reasonable
     economic assumptions were clearly stated in the grant proposal documents,
     or it used unsupported data that may have overestimated the potential
     profitability and sustainability of the proposed enterprises. In particular,
     project proposal documents did not always contain adequate support for
     economic assumptions concerning (1) the demand for products being offered
     by the small enterprises, (2) the proposed sales price of products, and (3) the
     potential impact of competition.

     The following section describes, for the 10 projects mentioned above,
     examples of (1) unresolved discrepancies that surfaced during the approval
     process, and (2) unsupported assumptions that were the basis for favorable
     predictions of project success.

        Benin 1136, Brick and Tile Project - In August 1998, ADF approved a
        five-year grant of $54,051 to the Local Construction Materials Promotion
        Group, an 18-person cooperative specializing in the production of earth
        bricks and concrete roofing tiles. These funds were intended to be used
        to establish a production facility for the manufacture of brick and tiles;
        purchase an 8-ton truck for the transport of materials and finished
        products; provide working capital for such expenses as raw materials,
        advertising and insurance; and provide members with training in tile
        manufacturing, bookkeeping, and management.

        The objectives included in the grant agreement with ADF were as
        follows: (1) increase the group’s technical, marketing, financial and
        managerial skills; (2) expand brick and tile production; and (3) increase

10
the revenue and profits of the enterprise. Thirty-five percent of the profit
would be returned to the members, with the rest spent on legal reserves
(10 percent), reinvestment (50 percent), and social activities (5 percent).

Several ADF project selection documents predicted that the brick and tile
enterprise would be profitable and sustainable. One document stated that
the demand for bricks exceeded the group’s capacity to produce and
deliver them and that roof tiles were attractive to people who could afford
the higher initial cost of installation. Revenue from the enterprise was
expected to nearly triple during the five years of the grant.

However, a pre-award feasibility study commissioned by the CLO did
not support ADF’s conclusion. The study stated that only about 20
percent of Benin’s population could afford houses made of bricks and
roofing tiles and houses made with roofing tiles accounted for less than
one percent of all homes. The study also estimated (without providing
any supporting documentation) that the grantee’s facility would produce
and sell 180,000 bricks and 67,500 roofing tiles per year by the project’s
second year. The study did not explain why local competitors were not
meeting the unmet demand for bricks, although it noted that the ten local
brick makers had a capacity of 4,000 bricks per day (over 1 million bricks
per year based on a 5-day work week). ADF’s review of the project did
not address these concerns about demand or competition.

                                                         Photograph of
                                                         empty tile-curing
                                                         basins at ADF’s
                                                         Brick and Tile
                                                         project in Benin.
                                                         The economic
                                                         analysis predicted
                                                         that there would be
                                                         times when the
                                                         project would not be
                                                         able to produce at
                                                         full capacity
                                                         because the curing
                                                         basins would be full.


Three years into the 5-year project, the group had completed less than 3
percent of the anticipated life-of-project brick production and only 24
percent of the tile production. Although the project was expected to earn
significant profits for the group, it operating at a loss and more than half
of the group’s members left the project to work elsewhere.



                                                                          11
     Senegal 1275, Ceramics Project - In September 1999, ADF signed a
     grant agreement with the Workshop for Ceramic Production and
     Promotion. The ADF grant, totaling $59,258, funded the upgrade of
     equipment in an effort to improve the quality and efficiency of pottery
     and ceramics production. The specific objectives as outlined in the grant
     agreement were to (1) improve members’ business management and
     marketing skills, (2) expand production of ceramic art, (3) increase
     members’ earnings, (4) generate funds for equipment replacement and
     building repair, (5) generate increasing profits, and (6) provide ceramic
     stove elements to 250 customers.

     To determine if the project would be sustainable, ADF completed a cash
     flow analysis using projected sales of ceramic art and stove elements.
     According to ADF documents, the assumed prices for these products
     were calculated to take into account production costs plus a reasonable
     profit margin for the group. However, the actual selling price for these
     elements in Senegal was not considered. After the first year, the expected
     sales were assumed to be equal to 100 percent of the project’s monthly
     production capacity, and ADF expected the group’s profits to increase by
     over 1600 percent during the 5-year life of the project. Support for these
     assumptions was not stated.

     After two years of operation, production remained far below targets.
     According to the grantee’s September 2001 trimester performance report,
     production had reached only about three percent of expectations and the
     business was operating at a loss. Members had not received any of the
     planned earnings distributions. Funds set aside for equipment
     replacement and repair were less than three percent of the targeted
     amount.

     Uganda 1293, Garbage Recycling Project - In September 1999, ADF
     signed a 4-year grant agreement for $235,088 to fund a garbage recycling
     project in a district about ten miles from Uganda’s capital city of
     Kampala. The project involved collecting garbage from both commercial
     and residential areas, recycling any decomposable garbage, and
     packaging and selling the compost to farmers as organic fertilizer. ADF
     funds supported the purchase of machinery and equipment and
     infrastructure construction. ADF funds also supported operational costs
     and training.

     According to ADF pre-award review documents, the proposed project
     appeared to be both sustainable and profitable and held potential for
     replication. However, the economic and marketing analysis submitted
     with the proposal did not identify the price that customers would be
     willing to pay for the organic fertilizer. Instead, the analysis stated that

12
   the group’s fertilizer should be priced to cover the group’s operational
   costs and make sufficient profit to allow expansion of the enterprise. In
   addition, the analysis showed that 650 metric tons of fertilizer could be
   sold each month, without explaining the basis for this estimate.

   As part of the proposal review, the ADF Regional Manager asked where
   potential customers currently obtain their fertilizer. In response, the CLO
   referred to the same unsupported data that had been originally submitted.
   In the end, ADF’s economic analysis stated only that indications of high
   demand were based on (1) the comments of an unspecified number of
   customers who stated that they would buy more fertilizer, and (2) the
   assertion that farmers around the project had shown interest in this
   fertilizer. The group’s production target was set at 272 metric tons per
   month. This estimate seemed optimistic in comparison to the group’s
   total pre-grant production and sales of 400 metric tons in the previous
   two years, only about 17 metric tons per month.

    During the last trimester ending September 30, 2001, the group sold less
    than three percent of the expected amount of fertilizer. Group
    representatives cited the lack of demand as the major reason for the slow
    sales. After three years of operation, the project had not become
    profitable.

Although well-supported economic analyses do not guarantee that an
enterprise will be successful, such studies (1) were required by ADF policy,
and (2) help ensure that only projects with the best potential are funded.
Realistic market analysis are critical but challenging, as they must estimate
the unmet demand for specific products giving adequate consideration to
variables, including price assumptions, reactions by competitors, and general
economic conditions for a given population. For several of the projects ADF
funded, continued demand for the grantee’s products was a fundamental, but
often unsupported, predictor of project success.

ADF officials stated that many of the projects reviewed for this audit had
been approved during a period when the Foundation focused more on
potential social impact than on generating income. The officials stated that
after February 1999, ADF personnel received training to improve their ability
to prepare and review financial analyses.

However, as demonstrated by the ceramics and garbage recycling projects,
some projects approved after February 1999 lacked adequate support
demonstrating that products could be sold at a price to cover costs.
Furthermore, it was assumed that sufficient product demand could be
developed to ensure project sustainability.



                                                                           13
     ADF officials also stated that the Foundation is developing new procedures
     that will ensure that the composition of the PDG changes as needed to ensure
     that personnel with appropriate skills and knowledge review each project.
     According to ADF, PDG recommendations will be comprehensive in
     identifying all relevant issues critical to funding decisions. However, ADF
     should ensure that trained staff participate in project selection and
     development processes.

            Recommendation No. 1: We recommend that the African
            Development Foundation develop procedures that require
            that staff members who have been trained to evaluate the
            economic assumptions of project proposals participate in
            project development and reviews.


     ADF Needs to Ensure That Environmental
     Reviews Are Completed

     ADF policy stated that the Foundation would not fund projects that
     contemplated the use or production of material or substances known to be
     hazardous to human health. According to ADF’s selection procedures, the
     CLO or a technical assistance provider should determine, among other
     things, (1) the types of chemicals being proposed for use, (2) waste products
     to be generated and means of their disposal, (3) applicable government
     regulations, and (4) strategies to mitigate degradation to the environment.
     The policy further provided that environmental issues should be incorporated
     into the project documents reviewed by the PDG.

     For three of the micro-enterprise projects reviewed, ADF did not fully
     evaluate potential negative environmental consequences before approving the
     grants. When environmental analyses are not completed and evaluated, there
     is risk that the affected projects could create environmental hazards. The
     problems identified are explained below.

        Benin 1122, Print Shop - In July 1998, ADF provided funding to
        PRIM’ETIC, a cooperative enterprise specializing in printing and graphic
        art design. PRIM’ETIC made greeting cards, flyers, invitations and other
        printed materials. ADF provided $132,627 to construct and equip a
        printing workshop, including the purchase of presses, computers, and a
        delivery vehicle.

        According to the environmental analysis of the project prepared by a
        consultant selected by the CLO, “printing and graphic art activities do not
        have a negative impact on the environment. They produce no effect that
        can cause environmental degradation.” However, when screening the
        project for environmental impact, an ADF official noted that solvents

14
   used to clean printing presses are considered hazardous waste and not
   only degrade the environment but also are frequently toxic.

   Another official noted that efforts should be made to make the project
   more environmentally friendly by recycling printing wastes. Therefore,
   the Regional Manager recommended that “adequate procedures for the
   disposal of wastes” should be included in the project description.
   Despite the recommendation, a summary of the environmental factors was
   not included in the final project paper, and the grant agreement did not
   describe any specific disposal procedures for hazardous inks, solvents and
   other materials. In March 2002, auditors found such materials stored in
   open containers at the project site. Grantee representatives acknowledged
   that these substances could be harmful but stated that there were no special
   procedures for using, disposing or recycling these materials.

   Benin 1092, Cold Storage and Senegal 1098, Fish Marketing - In both
   projects, approved in September 1997, there were environmental issues
   related to cold storage and refrigerants that were not addressed in the CLO-
   developed proposals or ADF review documents. To reduce the threat of
   ozone depletion, the U.S. and other nations have agreed to phase out the use
   of chloro-fluorocarbons, including the common refrigerants used by cold
   storage systems. Despite these concerns, the project documents did not
   contain evaluations of the potential problems created by refrigerants and
   potential mitigation through use of environmentally friendly alternative
   refrigerants.

According to ADF officials, the Foundation has significantly enhanced its
capabilities for reviewing environmental assessments since these projects
were approved in 1997. The officials added that the problems cited should
be attributed to an oversight during document preparation. To help ensure
that adequate environmental analyses are prepared when necessary, we are
making the following recommendation.

       Recommendation 2: We recommend that the African
       Development Foundation develop guidance to help its staff
       members recognize potential environmental issues when
       reviewing project proposals and develop procedures to
       ensure that staff members have verified that environmental
       analyses have been performed whenever warranted and
       that all issues of concern have been addressed.




                                                                             15
     Did the African Development Foundation implement a system
     to monitor grantee projects and obtain project results?

     During fiscal year 2001, ADF did not implement an effective system to monitor
     its projects and obtain project results. ADF records indicated that CLO staff did
     not complete the recommended number of monitoring visits to each project.
     Contrary to ADF procedures, monitoring reports often did not indicate the
     progress grantees had made toward achieving each grant objective, and usually
     did not document steps needed to resolve issues that may be impeding project
     success. ADF officials noted that monitoring activities had been hampered by
     the Foundation’s reorganization efforts during fiscal year 2001.

     In addition, progress reports submitted by grantees did not always include
     accurate and useful information about cumulative progress against the baseline,
     annual or end-of-project objectives. In fiscal year 2001, ADF officials had
     recognized problems with both the report format mandated by ADF and the
     quality of progress data provided by grantees, but had not taken appropriate
     corrective action. As a result, during the period covered by this audit, the
     Foundation could not reliably determine if its programs were meeting
     objectives and would become sustainable.

     ADF Needs to Improve Monitoring of
     Progress Toward Objectives

     According to ADF policy, the Foundation was required to regularly collect and
     assess information related to the performance of its activities. Specifically, the
     Foundation would track, monitor, evaluate and report on each project’s progress
     toward achieving its objectives and performance indicators. According to the
     policy, this information would allow the Foundation to “manage for results”
     and would, among other things:

     •	 assist planning by identifying what worked and what did not;

     •	 improve the implementation of projects by signaling when impact was less
        than anticipated and identifying possible problems; and

     •	 enable ADF to comply with the Government Performance and Results Act.

     To allow ADF Headquarters to track and document grantee progress toward
     objectives, ADF required CLOs to make periodic monitoring visits to each
     project. Foundation policy recommended that CLO staff conduct no less than
     three monitoring visits per year to individual projects funded by grants over
     $50,000 (twice per year if grants are under $50,000), although the frequency
     might vary depending on the needs of the group. During these visits, the CLO
     was to verify and report on the specific accomplishments of the project

16
including progress made toward achieving each of the quantifiable objectives
contained in the grant agreement.

In addition to tracking progress, monitoring visits were intended to facilitate
prompt interventions to resolve issues that might be impeding project success.
Each report was expected to document both follow-up actions that could be
taken by the local CLO staff and the issues that would require action by ADF
Headquarters officials. The CLO was required to submit each monitoring site
visit report, along with a monthly report of CLO activities, to ADF
Headquarters.

Monthly activity reports and monitoring reports located in project files
showed that CLO staff visited 12 of the 18 projects reviewed at least three
times during fiscal year 2001. CLO records showed that three of the
remaining projects were visited twice, one project was visited only once, and
two projects were not visited at all. In most cases, the CLO monitoring
reports did not meet ADF’s requirements. The reports usually did not
address the grantee’s progress toward each objective, and most reports lacked
remediation plans for performance-related problems. According to CLO
personnel, more site project site visits had been completed but had not been
documented.

To ensure that the projects were monitored effectively and that reports received
in Washington were accurate and complete, the Regional Director and Regional
Managers also regularly visited ADF projects. Available records showed that,
during fiscal year 2001, ADF officials made at least 18 trips to the four
countries covered by this audit and visited 15 of the 18 projects selected for
review by the auditors. In some cases, trip reports adequately documented the
staff’s monitoring activities. In other cases, the reports provided few details
regarding staff activity, problems identified, or solutions proposed.

Despite site visits by CLO and ADF officials, 12 of the 18 grantees visited by
the auditors were experiencing problems that had not been identified and
addressed through ADF monitoring efforts. Examples are detailed below.

   Benin 1092 – Cold Storage - This grant, signed in September 1997,
   provided funds totaling $179,147 to help 10 members of a cooperative
   develop an enterprise to market fish and poultry. ADF bought the
   cooperative a cold storage warehouse, a generator, other needed
   equipment, and a reconditioned 20-ton refrigerated truck. The warehouse
   is capable of storing up to 90 metric tons of frozen fish and poultry.

   The cooperative was expected to generate substantial annual profits but,
   after four years of operations, had not yet reported a profit. Reported
   revenues were less than 10 percent of the target. According to project

                                                                               17
     records, the warehouse had never been filled at more than 2 percent of
     capacity. It was nearly empty when the auditors visited. The group’s
     major source of revenue was the rental of the ADF-purchased refrigerated
     truck to competitors. The cooperative had hired employees (fish cleaner,
     cashier), although the project plan had stated that cooperative members
     would perform these tasks.

     CLO records showed that CLO staff made four visits to the project in
     fiscal year 2001, although only two visits were documented. These site
     visit reports were not completed according to ADF guidelines and
     contained no mention of the low sales, and no remediation plan to
     address this problem. ADF records showed that the Regional Director
     and Regional Manager visited the project in March 2001 and that they
     had identified significant project implementation and management issues.
     However, although the site visit report noted that remedial technical
     assistance would be obtained for the project, the specific concerns were
     not included in the report.

     In June 2001, the CLO hired an economic consultant to review the
     project. The consultant confirmed that the project activities were
     progressing slowly and the project was operating at a loss. The resulting
     report estimated that the weight of the stock in the cold storage facility
     between March and June 2001 was only 1.3 percent of capacity. The
     report also noted that the project did not have sufficient working capital
     to pay for electricity, water, salaries, and the insurance for the vehicle. In
     addition, the report stated that group members could perform the work of
     hired employees, thus reducing salary expenses.




                                                                  Photograph of the
                                                                  underutilized cold
                                                                  storage warehouse
                                                                  in Benin.




18
The consultant’s report included several recommendations to assist the
group in raising additional capital, including seeking other donors or
approaching financial institutions and adding more members. However,
the report did not include any recommendations for improving sales to
help the group develop a sustainable enterprise.

According to ADF records, the Regional Manager returned to the project
in August 2001. However, the official’s trip report did not indicate that
actions were underway to ensure the profitability and sustainability of the
cooperative.

Senegal 1098, Fish Marketing - In September 1997, ADF approved a
grant to the Women’s Communal Union totaling $173,403. The five-year
grant sought to provide a reliable source of employment and increase
revenue for the Union and participating community members through the
establishment of a viable and sustainable perishable fish storage and
marketing business. In addition, ADF expected to strengthen the
organizational capacity of the Union to manage and sustain the enterprise
after the completion of the grant. However, as of September 2001, four
years after the grant was approved, the group had not sold any fish.

According to CLO records, the project was visited five times in fiscal year
2001. Three of the visits were documented, but the trip reports did not
conform to ADF’s reporting requirements. During the first visit, the CLO
staff noted the lack of activity and group organization. The staff prepared a
table with problems and recommended actions; however, no timeframe was
given. According to available records, the CLO did not follow-up on these
recommendations in two subsequent visits in July. An ADF Regional
Manager also visited the project in March and July 2001, but these visits did
not result in a remediation plan to ensure that the project would be
profitable or sustainable.

Tanzania 1178, Salt - In September 1998, ADF approved a grant to
provide the Tanzania Research and Salt Mine Cooperative up to $250,000
over six years for a salt production project. The ADF grant was used,
among other things, for the development of salt evaporation ponds, the
construction of an office and warehouse, and the procurement of transport.
The project sought to create a medium-size salt production facility serving
local and regional markets. Other specific objectives were to create
permanent employment for the 32 members and seasonal employment for
20 others, increase the production of salt, and raise the average individual
member’s annual financial benefits.

Delays in installing the primary pump set back the project significantly, and
the project had never reached expected production levels. The plant
achieved between 10 percent and 16 percent of the goals set out in the

                                                                           19
     agreement for the past three years. Due to the low production levels, the
     project had not been able to provide fulltime permanent employment for all
     32 members. Rather, performance reports for fiscal year 2001 showed an
     average of 4 workers per period, and net member income was reportedly
     only 2 percent of the project’s target. The electricity was disconnected for
     non-payment due to a disagreement over the bill rate. The seawater pump
     had not been regularly maintained and was covered by a good deal of rust.
     At the time of the audit, the pump had rusted and only the framing for the
     warehouse had been completed, precluding the storage of inventory.

     According to the CLO records and the grantee, the project had been visited
     three times during fiscal year 2001. However, the CLO reports for these
     visits were not documented according to ADF requirements. For example,
     site visit reports did not include an evaluation of progress against all
     objectives or a clear remediation plan. According to ADF records, the ADF
     Regional Manager also visited the project in April 2001. As of April 2002,
     however, ADF had not developed a remediation plan for the project.

     Uganda 1293, Garbage Recycling - In September 1999, ADF signed a
     grant agreement for a garbage recycling project (see description, page 11).
     After three years of operation, the project had never been profitable and had
     not achieved its objectives. For example, the grantee had achieved only ten
     percent of its garbage collection target and less than three percent of its
     fertilizer sales target. Nine of the 20 ADF-funded dumpsters were at the
     garbage sorting facility instead of being placed in the township where they
     could be used.



                                                                Photograph of
                                                                two of the nine
                                                                ADF-funded
                                                                dumpsters in
                                                                Uganda that
                                                                were not in use.




     The dumpsters that were in the township had been filled and emptied
     much less frequently than had been planned. Most of the garbage
     separation buckets that were intended for use by families living in the
     township had not been distributed. Moreover, the motor for a machine


20
   intended to sift compost had been removed and was unaccounted for and,
   as a result, women were sifting compost by hand.



     Photograph of
     women sorting
     compost by hand
     because the
     motor for the
     ADF-funded
     sifting machine
     was missing.




These problems suggest that ADF needs to strengthen its oversight of project
activities to help ensure the early identification of problems and the rapid
remediation or prompt termination of grants, if necessary. Because ADF did
not always closely monitor its projects, it did not always have accurate or
timely information about projects experiencing problems and did not provide
timely assistance to help grantees reach their objectives.

In addition, ADF did not have a system that provided for semiannual or
annual project implementation reviews. There were no scheduled milestones
to trigger a full review of all project information that might result in a
decision to terminate project funding.

According to ADF officials, program monitoring during fiscal year 2001 was
hampered by the Foundation’s focus on reorganization efforts. Foundation
officials stated that ADF has begun developing procedures that will minimize
the weaknesses and risks identified during this audit, including new
requirements for site visits by ADF program staff and Partners.

Furthermore, ADF stated that it would conduct annual portfolio reviews of
all projects. Those that are not making expected progress will be placed on a
Watch List, and the ADF President will receive a quarterly report on the
status of remediation activities. Projects with the most severe problems will
be labeled as “At Risk” and are expected to receive more intensive
monitoring and reporting to address the problems identified. Because these
actions have not yet been implemented, we are making the following
recommendation:




                                                                           21

         Recommendation 3: We recommend that the African

         Development Foundation implement revised policies to

         evaluate grantee progress toward grant objectives and

         facilitate prompt interventions to improve project results or

         terminate (if necessary) non-performing grants and provide

         the Office of Inspector General with documentation of the

         results of the first such portfolio review to take place after

         issuance of this report.



     ADF Needs to Improve
     Results Reporting by Grantees

     According to ADF policy, the Foundation will track, monitor, evaluate and
     report on the progress grantees make toward achieving project’s objectives, and
     will systematically undertake performance assessments against project
     objectives and performance indicators. To facilitate these assessments, ADF
     required all grantees to submit a Project Activity Report (PAR) every four
     months that included information on cumulative progress against the baseline
     and end-of-project targets for each objective, as well as progress during the
     particular reporting period for all performance indicators.

     Although grantees submitted the required reports, ADF officials did not
     always review the reports with sufficient care to ensure that the reported data
     was accurate, complete, and useful. Because of the problems listed below,
     several PARs reviewed during the audit could not be used to fully assess
     progress toward grant objectives. Identified problems included:

     •   annual performance described as cumulative life-of-project results;

     •   mathematical errors;

     •   unverified results; and

     •   lack of indicators for key program objectives.

     Problems specific to the projects visited during the audit are detailed below.

         Benin 1122, Print Shop - The grantee’s PARs contained revenue
         statements that could not be reconciled with its accounting records. For
         example, the PAR for the period June to September 2001, reported revenues
         that were 22 percent higher than revenues reported in the grantee’s
         accounting records. Also, the PAR did not accurately carry forward
         performance data from one period to the next, making it difficult to identify
         performance trends or measure progress toward achieving grant objectives.

22
The PAR reported results for revenue and depreciation (two of four
quantifiable project objectives) but did not report member allowances or net
profit objectives, which would have been useful indicators of the project’s
economic benefits and potential sustainability.

Senegal 1164, Credit Union - The grantee reported results in its PAR
that could not be verified because it did not keep proper accounting
records, information on results achieved could not be reconciled to its
line item journal and its general ledger had not been updated since
February 2001. Although PAR reports for fiscal year 2001 contained 42
indicators, there were no indicators for four of eight quantifiable
objectives in the grant agreement. For example, the PAR did not report
the group’s progress toward objectives such as profit and member
income.

Tanzania 1178, Salt - The grantee’s PAR reported that a cumulative
total of 32 members had been employed during fiscal year 2001.
However, according to grantee records and interviews with grantee
representatives, the project employed only four workers in fiscal year
2001. Also, there was no documentation supporting the salt production
baseline indicator of 332 tons a year; the group’s records indicated an
average annual production of 233 tons before the start of the project.

Uganda 1293, Garbage Recycling - The grantee was required to report
on 17 indicators, covering all of the project’s objectives. However, the
PAR for the period June through September 2001 did not accurately carry
forward figures from the previous reporting period. The grantee had no
records to support the reported amount of garbage collected, and the
grantee’s records did not support the amounts reported regarding
fertilizer sales volume and revenue.

Also, the grantee calculated a monthly average for the garbage collected
during this period. Rather than comparing this new average to the
previous period’s average to determine whether collections had increased
or decreased, the grantee added the two averages together and reported
that its average monthly collections had increased; in fact, average
collections had dropped by more than 50 percent. The grantee’s reported
progress for fertilizer production and revenue also contained significant
mathematical errors.

The PAR report also contained a per-month average for collections and
sales that was obtained by dividing total figures for the four-month period
by two instead of by four, thereby doubling the actual average monthly
results.



                                                                         23
     ADF officials were aware of the shortcomings of the PAR system. For
     example, in a December 2000 report on projects in Tanzania, an ADF official
     reported that, in most cases, grantees were not collecting the full range of
     data required for their PARs. This report noted that grantees (1) sometimes
     had no verifiable basis for the data they reported, (2) had failed to report
     serious problems encountered, and (3) reported data that were not always
     comprehensible or reliable. In July 2001, another ADF official reported that
     that there were flaws in the results reporting chart developed for some
     projects in Tanzania. According to this report, outputs that should have been
     measured as annual rates were instead being reported as cumulative sums,
     rendering them “meaningless.” In December 2001, an ADF official reported
     that the PARs in Uganda continued to provide unreliable and unsupported
     data regarding project progress, and recommended significant revisions to the
     reporting process and format. As of May 2002, the reporting system had not
     been revised.

     ADF officials stated that its current results reporting process was too
     complex because some grantees did not have the technical skills needed to
     accurately maintain and calculate the needed data. ADF stated that it would
     revise and simplify its grantee reporting requirements. A new methodology
     will be reviewed in its entirety during an upcoming ADF conference.

     Because ADF did not always receive accurate and complete information
     about project progress, it could not reliably determine if projects were
     meeting objectives and would become sustainable. In addition, because
     grantees did not always have accurate records to support submitted data,
     results were difficult to verify and ADF had only limited assurance that
     projects were obtaining the reported results.

         Recommendation 4: We recommend that the African
         Development Foundation establish policies requiring periodic
         evaluation of the performance indicators developed for each
         project to ensure that all indicators are necessary and
         relevant.

         Recommendation 5: We recommend that the African
         Development Foundation provide grantees appropriate
         training to accurately maintain and report performance data.


     Did the African Development Foundation implement a system to audit
     funds provided to grantees?

     ADF did not establish effective policies, procedures, and practices to audit
     funds provided to grantees. Because of weaknesses in its policies and its

24
oversight practices, ADF did not ensure that (1) an appropriate number of
audits were performed, (2) audits were conducted at the most appropriate
time of a grant’s life cycle, and (3) all grants over $50,000 were audited.
While ADF selected local accounting firms in accordance with Foundation
policy, the firms did not always incorporate all required work steps in their
programs and did not perform, or did not properly document, several
important accountability checks. Contrary to ADF policy, the ADF Internal
Auditor did not conduct audits of the funds provided to CLOs in accordance
with Government Auditing Standards or as often as required by ADF policy.
Furthermore, ADF did not have a process that ensured that all significant
audit recommendations were tracked and implemented.

According to ADF officials, because the Foundation was in a transition
period from CLOs to Partner organizations during the past year, some aspects
of the Foundation’s audit program did not receive appropriate attention and
were therefore not properly implemented. As a result, the audits provided
limited assurance that grant funds were being used for intended purposes, and
ADF did not have adequate assurance that the funds provided to grants were
used only for approved purposes

ADF Needs to Improve the Audit Universe,
Audit Selection Process, and Audit Timing

ADF’s audit selection procedures targeted about one-fourth of all active
grants for audit in fiscal year 2002. Half of the grants were to be selected
randomly and half were to be selected by ADF managers from among those
grants having a value of $100,000 or more. Although there was no
requirement that every grant be audited, ADF officials stated that ADF would
audit each grant over $50,000 before it expired.

To determine the minimum number of projects to be audited during fiscal
year 2002, ADF calculated the number of "project starts" over the previous
four years and divided that number by four. The resulting number
established the minimum number of audits that would be planned, although
more could be performed if appropriate. The list used by the Director of
ADF’s Office of Budget, Finance and Administration to perform this
calculation showed that 177 grants had started since fiscal year 1998. One-
fourth of this total was 44, and 46 grants were eventually selected for audit in
fiscal year 2002. However, the list of active projects was incomplete and
inaccurate. The actual number of “project starts” during the previous four
years totaled 220 grants, and ADF should have performed at least 55 audits
in fiscal year 2002. Instead, ADF selected 16 percent fewer grants for audit
than would have been selected if an accurate list had been used.




                                                                             25
     ADF policy stated that half of the grants that would be audited would be
     selected randomly, and these grants were selected for audit without adequate
     regard to the status of their activities. As a result, some audits were
     completed before significant project activities had taken place, reducing the
     value of the audit. Other audits took place near project completion, thus
     reducing the opportunity for corrective intervention during the life of the
     grant.

     In addition, due to the lack of a comprehensive audit plan, 13 grants over
     $50,000, with a total funding of $925,000, expired in fiscal year 2001 or
     fiscal year 2002 without being audited at all. ADF did not have reasonable
     assurance that these grant funds were used for intended purposes.

     To preclude these anomalies in the future, ADF should establish new audit
     selection procedures that ensure that, at a minimum, all high value grants are
     audited and that these, and all other audits, are conducted at appropriate times
     during the lifecycle of the respective grants. The base for developing this
     plan should be a complete and accurate audit universe that contains such
     elements as:

     •   grantee name and country;

     •   award number, amount in U.S. dollars, and start/completion dates;

     •   information on any prior audits and periods covered;

     •   grant expenditures to date;

     •   date of planned audit(s); and

     •   date audit report should be received.

     With a complete audit database available, ADF can then develop an audit
     plan as recommended below:

         Recommendation 6: We recommend that the African
         Development Foundation establish a minimum threshold for
         the value of grants that will be audited and establish annual
         audit plans to ensure that, at a minimum, all grants that exceed
         the threshold are audited at an appropriate point during the
         grant lifecycle.

         Recommendation 7: We recommend that the African

         Development Foundation provide its annual audit plan to the

         Office of Inspector General by October 1 of each fiscal year.


26
ADF Needs to Monitor the
Quality of Grantee Audits

Five local public accounting firms audited projects in Benin, Senegal,
Tanzania, and Uganda between FY 1998 and FY 2001. ADF selected these
firms in accordance with Foundation policy for identifying qualified audit
firms. However, although the firms were required to develop audit programs
(a series of work steps) that complied with audit guidance provided to them
by ADF, the firms did not always incorporate all required work steps in their
programs. In addition the auditors did not perform, or did not properly
document, several important accountability checks. Because of weak
oversight practices, ADF was unaware that the auditors had not complied
with ADF policies and guidelines. As a result, the audits provided limited
assurance that grant funds were being used for intended purposes.

ADF had developed criteria to ensure that it selected qualified local
accounting firms to audit the funds provided to grantees. The criteria
required ADF to select accounting firms with appropriate professional
affiliations, education, training, language capabilities, and experience with
grassroots organizations. ADF followed its own policies and procedures in
selecting the five local accounting firms whose audit work was reviewed
during this audit.

Ordinarily, ADF selected and contracted with one qualified public
accounting firm to conduct all grant audits in that country. According to
ADF policy, the audit function should be re-competed every three years.
ADF included funds to pay for grant audits in each grant budget and used
those funds to pay for an audit of the grant, if the grant was selected for audit.
ADF retained the designated funds and disbursed them directly to the
accounting firm to pay for completed audits.

ADF provided substantial guidance to the firms it contracted to audit grant
funds to help ensure that these audits would comply with U.S. Government
Auditing Standards and Office of Management and Budget guidance. ADF’s
instructions for the conduct of audits were outlined in the detailed scope of
work of each contract for audit services. The scope of work stated, in part,
that audits must be performed in accordance with the Foundation’s field audit
guidelines. ADF required that the accounting firms complete the following
activities during each audit:

•   verify the accuracy and completeness of project expenditures,

•   ascertain that there was full accountability for all project funds and assets,

•   review and determine the adequacy of the internal controls,


                                                                               27
     •	 examine and report on the technical competence of project personnel to
        maintain accounting records, and

     •	 review the grantee’s financial statements to ensure that they were fair,
        reasonable and without obvious errors.

     However, the firms did not always perform all required audit tasks.
     Examples from the eight grantee audits reviewed follow.

        Benin 1122, Print Shop - The local accounting firm that audited this
        project kept no documentation related to several tasks that ADF had
        asked it to perform. Specifically, the firm had no working papers to show
        that auditors had (1) reconciled ADF’s fund disbursements with the
        grantee’s accounting records, (2) reconciled expenditures recorded in the
        general ledger to subsidiary ledgers, or (3) verified that the grantee’s
        expenditures complied with the grant agreement budget. Also, the firm
        did not verify the existence and condition of fixed assets, or validate
        ownership of these assets. There was no documentary evidence in the
        firm’s working papers to support three weaknesses noted in its audit
        report.

        The accounting firm’s audit program did not incorporate several of the
        requirements from ADF’s audit guidelines into its audit program for this
        audit, and there was no evidence that the required work had been done.
        Also, contrary to ADF’s guidance, the audit firm’s workpapers did not
        demonstrate that auditors had verified that the work or travel that resulted
        in payments to individuals for wages, salaries or travel had actually
        occurred.

        Senegal 1098, Fish Marketing - The audit report’s statements of fact
        and conclusions were not adequately supported by evidence in the
        auditor’s working papers. For example, the firm had no records showing
        that auditors had performed the work necessary to ascertain whether the
        grantee had complied with applicable laws, regulations, and provisions of
        the grant agreement. The firm also did not have records to show that it
        had reconciled ADF deposits to bank statements.

        Uganda 1096, Heifer Project - The local accounting firm did not
        adequately complete all of the requirements of its contract with ADF.
        The firm did not, for example, comment on the following: (1) the staff’s
        technical competence in terms of their ability to maintain accounting
        records, (2) the grantee’s accounting system, and (3) salary payments
        made under the grant budget, verifying that the amounts reported were
        paid and that applicable employer tax and social security payments were
        made. Also, there was no evidence in the workpapers demonstrating that


28
   several steps in the audit program had been completed, including
   verifying that work or travel was performed in the case of payments to
   individuals for wages, salaries or travel.

The contracted auditors also did not include discussions of significant issues
or discrepancies in their audit reports. For example:

   Benin 1145, Sewing and Dressmaking - The audit report contained no
   discussion regarding questionable purchases of capital assets. The
   grantee had not obtained two bids prior to purchasing sewing machines
   and motorbikes, although competition was required by ADF policy. In
   addition, the grantee purchased the motorbikes from a local “Agricultural
   Products and Fish” consultant, rather than an authorized dealer, and paid
   the exact amount budgeted for their purchase. ADF had no assurance
   that the prices paid for the sewing machines and motorbikes reflected
   their value. The audit firm should have questioned these practices.

   Uganda 1096, Heifer Project - Although the audit firm was required by
   the scope of work of its contract with ADF to establish whether
   expenditures are in accordance with the grant agreement, the firm did not
   report a significant discrepancy. The grantee had purchased a truck
   instead of purchasing the motorcycle and two bicycles that were
   authorized. The firm should have questioned the use of grant funds for
   this purchase and reported that there was no evidence of ADF
   Headquarters authorization for this change. In addition, the firm did not
   note that the truck was not appropriately registered in the name of the
   project as required by ADF policy.

   Uganda 1193,Vanilla Project - The audit report had no discussion
   regarding the grantee’s purchase of a pickup truck instead of the
   motorcycle approved by ADF. Also, the auditors did not report that the
   truck was improperly registered in the name of the former owner.

ADF did not implement procedures to review the quality of work performed
by these local accounting firms to ensure that the audits were complete,
accurate or performed in accordance with ADF guidance. ADF did not
review of the firms’ audit programs or workpapers. ADF also did not contact
the accounting firms to discuss the status of audit work or ensure that all
work was completed and that findings were appropriately supported.

As a result, ADF’s audit program provided limited assurance that project
funds were being used for the intended purposes. Because the auditors did
not always, as required by the scope of work, confirm that internal controls
were in place and functioning properly, there was increased risk that funds
were used improperly.

                                                                               29
        Recommendation 8: We recommend that the African

        Development Foundation establish and implement specific

        policies and procedures for an audit quality control program

        designed to ensure that audits are completed in accordance

        with Foundation requirements and appropriate audit

        standards.



     ADF Needs to Improve Audits of In-Country Partners

     Contrary to ADF policy, the ADF Internal Auditor did not conduct audits of
     the funds provided to ADF’s local Country Liaison Offices (CLOs) in
     accordance with Generally Accepted Government Auditing Standards
     (GAGAS) or as often as required by ADF policy. This occurred because
     ADF’s audit organization does not have an appropriate internal quality
     control system in place to assure compliance with appropriate standards. As
     a result, ADF had limited assurance that CLO funds were being used for the
     intended purposes.

     ADF required that its Internal Auditor audit each CLO biennially and
     complete a number of specific checks and procedures during each audit.
     Although each CLO audit report stated that the audit had been conducted in
     accordance with GAGAS, the four reports reviewed (the most recent CLO
     audit reports for Benin, Senegal, Uganda and Tanzania) were not compliant
     with GAGAS and ADF policy. Specifically:

     •	 the audit reports did not contain an expression of an opinion or an
        assertion to the effect that an opinion could not be expressed;

     •	 the reports lacked a complete scope and methodology section that stated
        the periods covered by the audits and the nature and extent of the
        auditor’s procedures;

     •	 the Internal Auditor’s workpapers contained no record of the audit
        objectives, scope and methodology, or other evidence of appropriate
        audit planning;

     •	 the workpapers did not show evidence that major audit procedures
        required by ADF policy had been completed by the auditor, including (1)
        physical verification that items of significant value had been purchased or
        built, (2) random sampling and testing of at least ten transactions, and (3)
        verification of the accuracy of the amounts reported for significant
        expenditures; and



30
•	 the workpapers did not show evidence of supervisory review or that the
   auditor followed-up prior audit findings and recommendations.

Furthermore, CLO audits were not completed as often as required by ADF
policy. CLOs in 8 of 14 countries (57 percent) were not audited as often as
required. Although audits were conducted every other year in Benin, Ghana,
Mali, Niger, Tanzania and Uganda, there was a three-year gap between audits
in Botswana, Cameroon, Guinea, Lesotho and Namibia, and a four-year gap
between audits in Cape Verde, Senegal and Zimbabwe.

GAGAS require each audit organization conducting audits to have an
appropriate internal quality control system in place. The internal quality
control system established by the audit organization should provide
reasonable assurance that it (1) has adopted, and is following, applicable
auditing standards, and (2) has established, and is following, adequate audit
policies and procedures. ADF had no such internal quality control system.
The Internal Auditor worked alone, and his work was not subject to the
supervisory review required to assure compliance with GAGAS.

As a result, ADF had limited assurance that CLO funds were being used for
the intended purposes. ADF has replaced CLOs with new in-country entities
called Partners. Because Partners are subject to the same audit procedures as
CLOs, the findings and recommendations in this report are equally applicable
to them. To ensure that the Partner audits are completed on time using
appropriate standards, we are recommending that these audits be included in
the ADF annual audit plan and conducted by an external auditor, as follows:

   Recommendation 9: We recommend that the African

   Development Foundation develop procedures to ensure that

   audits of Partner organizations are included in the

   Foundation’s annual audit plan.


   Recommendation 10: We recommend that the African

   Development Foundation contract with qualified U.S. or local

   accounting firms to conduct audits of funds provided to

   Partners and that these audits be subject to consistent and

   appropriate quality control review by the Foundation’s

   Internal Auditor.



ADF Needs To Improve Its Audit
Recommendation Tracking Process

ADF did not have a process that ensured that all significant audit
recommendations were implemented. OMB Circular A-50 requires audit

                                                                            31
     officials to oversee the work of non-federal auditors that is performed in
     connection with federal programs. The Circular requires that agencies
     “resolve” or develop plans to address all audit recommendations 2 within six
     months of report issuance. Agencies must also maintain accurate records of
     the status of audit reports or recommendations. The Circular also requires
     that the head of each agency receive semi-annual reports regarding, among
     other things, the status of unresolved audit recommendations and the
     monetary benefits resulting from audits.

     According to ADF policy, an Audit Committee - composed of the ADF’s
     Office of Budget, Finance, and Administration (OBFA) Director, the
     Foundation’s President, the General Counsel and other ADF senior
     managers- was responsible for promptly reviewing each grantee audit report
     and determining what follow-up actions were required. The Audit
     Committee would also receive a quarterly status report from the OBFA
     Director, which was based on information provided by ADF Regional
     Directors.

     However, the Audit Committee did not review audit reports as required, and
     ADF did not appropriately track recommendations to ensure that corrective
     actions took place. No Audit Committee meetings were held during fiscal
     year 2001 and the OBFA Director did not maintain a record of audit
     recommendation status or actions taken by the grantees. As of May 2002,
     only 7 of 32 significant audit recommendations for the reviewed projects had
     been implemented. These recommendations were contained in audit reports
     issued between October 1999 and May 2001.

     Examples of recommendations that had not been addressed are detailed
     below.

         Benin 1136, Brick and Tile - This project was audited in July 2000. The
         audit report noted that (1) the project’s products were not competitive
         because the prices (profit margin) were too high, (2) a fence had not been
         built around the work area, (3) the grantee had no insurance on project
         assets, (4) the grantee had poor accounting records, (5) there was
         insufficient control over the use and rental of the ADF-funded truck, and
         (6) the grantee was not following local requirements related to employee
         declarations for payroll, social security insurance, and taxes from the fees
         paid to service providers.

     2
       A variety of organizations may issue audit recommendations that ADF must address. For
     example, the OIG and the General Accounting Office have reviewed ADF operations and
     provided recommendations to ADF management. The OIG also contracts a public
     accounting firm to audit ADF’s annual financial statements and the resulting
     recommendations, if any, must also be addressed. Finally, ADF must ensure that the
     recommendations of the U.S. or local accounting firms that it contracts to audit grant funds
     are addressed by grantee or ADF officials, as appropriate.

32
   As of March 2002, nearly two years later, these recommendations had not
   been implemented. The grantee had not altered the price structure, even
   though sales of bricks and tiles were 95 percent below targets for fiscal
   year 2000 and fiscal year 2001. A fence had not been put up around the
   work area, and the grantee had not obtained insurance for project assets.
   The grantee’s accounting records did not reconcile with data reported to
   ADF, additional controls had not been placed on the use and rental of the
   project’s truck, and the grantee had not complied with tax law provisions.

   Similar recommendations regarding compliance with local tax laws were
   included in audits of five additional projects in Benin, Senegal and
   Tanzania. None of these projects were in compliance at the time of the
   fieldwork for this audit.

   Senegal 1164, Credit Union - An audit of this project in November 2000
   disclosed numerous findings concerning the accuracy and timing of
   reports, record keeping, and voucher accuracy. However, as of April
   2002, the grantee had not followed-up on the audit recommendations,
   including ensuring that the general ledger and grantee financial reports
   were properly reconciled.

   Tanzania 1171, Women’s Credit Union - An audit of this project issued
   in May 2001 found that the grantee had not prepared a loan aging
   schedule and that, rather than calculating the loan repayment rate, the
   grantee was using an estimated repayment rate. As of April 2002, a loan
   aging schedule was still not available, and the loan repayment rate could
   not be reconciled with the estimated rate reported to ADF.

In December 2001, ADF’s Audit Committee met to discuss the status of
audits performed during fiscal year 2001. Since that time, ADF has
developed a database of major audit recommendations and clarified
procedures and responsibilities for verifying grantee responses to the
recommendations. However, the database was incomplete, as it did not
include (1) audit recommendations from audits issued prior to fiscal year
2001, or (2) all major audit recommendations made to grantees, such as those
from audits in Tanzania. Also, the database did not include audit
recommendations resulting from CLO audits. Furthermore, ADF did not
complete semi-annual reports of audit recommendation status as required by
OMB Circular A-50.

According to ADF officials, the formal tracking of audit recommendations
during fiscal year 2001 did not take place due to staffing problems. The
Foundation had no Financial Control Officer, who is responsible for
managing the audit recommendation database, for much of the year.


                                                                           33
     Because audit recommendations were not tracked and implemented, ADF
     had limited assurance that its projects had effective internal controls and
     were operating in accordance with local laws and regulations. Unless ADF
     tracks recommendations and takes necessary corrective action (as required by
     OMB Circular A-50), there is increased risk that funds could be misused.
     Although ADF has taken steps to improve the process, additional systemic
     improvements are needed to allow ADF to manage, and the OIG to
     supervise, the Foundation’s audit process.

     To ensure that audit recommendations are appropriately tracked and
     implemented, ADF needs a more effective audit recommendation tracking
     system for all audits of ADF funds and operations. The tracking system
     should include recommendations from audits performed or supervised by the
     OIG and the General Accounting Office, as well as audits performed by
     firms under contract to the Foundation. Such a system would provide ADF
     with greater accountability for audit reports and recommendations, and
     ensure that the OIG can adequately maintain its supervisory role over the
     process.

        Recommendation 11: We recommend that the African

        Development Foundation establish policies and procedures for

        an audit follow-up system that is in compliance with the Office

        of Management and Budget Circular A-50 requirements,

        including the semi-annual reporting of audit recommendation

        status. These procedures should ensure that a copy of these

        semi-annual reports be provided to the Office of Inspector

        General.





34
Management   In its response to our draft report, ADF management concurred with our
             recommendations and described the actions the Foundation has planned or
Comments
             undertaken to address them. When fully implemented, these actions should
and our      significantly improve the Foundation’s selection, monitoring and audit
Evaluation   processes.

             To address our recommendations regarding program selection
             (Recommendation Nos. 1 and 2), ADF officials noted that the Foundation is
             implementing a comprehensive plan for strengthening economic appraisal of
             project proposals at the identification, development, review, and
             implementation stages. ADF is revising its environmental policy and
             developing new procedures and guidelines to assess the environmental
             implications of project proposals.

             To improve the Foundation’s grant monitoring system (Recommendation
             Nos. 3, 4 and 5), ADF management is planning a new policy to assess
             grantee progress toward grant objectives and facilitate prompt intervention.
             This policy relies on effective monitoring of project implementation and
             portfolio reviews. The revised policy on monitoring and evaluation will
             require routine evaluation of project performance indicators during portfolio
             reviews, the annual program impact exercise, and any time a project is
             amended. In addition, the review of quarterly progress reports may trigger
             the evaluation of project indicators.

             To address our concerns related to the audits (Recommendation Nos. 6– 11),
             ADF management agreed to develop an annual audit plan that will be
             submitted to the OIG. In addition, ADF officials plan to issue revised
             policies and procedures for its audit quality control program, and will also
             incorporate applicable audit standards.

             ADF disagreed with our finding that the Foundation’s current audit
             recommendation tracking system was not in compliance with OMB Circular
             A-50, but agreed to expand the recommendation tracking and reporting
             system to include grants and cooperative agreements. We maintain that
             Circular A-50 requires that these audits be included in the tracking and
             reporting system, and agree that the proposed actions will bring the
             Foundation into compliance with the OMB guidance.

             Based on ADF’s comments, we conclude that management agreement has
             been reached regarding all recommendations.




                                                                                        35
     This Page Intentionally Blank




36
                                                                                     Appendix I

Scope and     Scope
Methodology
              This audit had three objectives, which were to determine if the African
              Development Foundation (ADF) had (1) evaluated and selected proposals for
              funding in accordance with Foundation policies and procedures, (2)
              implemented a system to monitor the progress of grantee activities, and (3)
              implemented a system to audit funds provided to grantees. The Office of
              Inspector General’s Performance Audit Division, Regional Inspector
              General/Pretoria and Regional Inspector General/Dakar conducted this audit
              in accordance with generally accepted government auditing standards.

              Our audit included a detailed review of 18 of ADF’s 248 active projects that
              were located in 4 of the 13 countries with ADF operations during fiscal year
              2001 – Senegal, Benin, Tanzania and Uganda. The countries were selected to
              ensure that at least one country from each of ADF’s three management
              divisions was included in the review. Specific projects were selected to (1)
              provide geographic coverage within each country, (2) provide an adequate
              distribution between micro-finance and micro-enterprise grants, and (3) allow
              us to focus on larger grants. In order to evaluate past monitoring efforts, only
              projects that had expended more than 50 percent of grant funds through fiscal
              year 2001 were included in our sample. We reviewed ADF’s fiscal year 2002
              audit program because data for the fiscal year 2001 audit program were not
              readily available. We reviewed the activities of the ADF Internal Auditor
              during fiscal year 2001, and reviewed ADF’s most recent audit reports
              completed for 13 Country Liaison Offices (CLOs). ADF concurred with this
              scope.

              We reviewed significant management controls related to the selection and
              monitoring of the 18 projects in our sample. These controls included (1)
              ADF’s process for evaluating proposals submitted by the CLO, and (2) the
              Foundation’s process for monitoring grantee progress and preparing progress
              indicator data during fiscal year 2001. In a few cases, complete
              documentation for the selection process had not been retained and we made
              judgements based on the evidence available.

              We evaluated the effectiveness of ADF’s audit program as a management
              control. We reviewed specific controls related to the fiscal year 2002 audit
              program, including (1) the process for developing the audit universe, (2)
              quality control efforts related to audits by accounting firms in four countries,
              (3) the process for tracking and closing audit recommendations, and (4)
              quality control procedures for the eight audits completed for projects in our
              sample.


                                                                                                 37
     Fieldwork for this audit took place in Washington, D.C. from February 2001
     until August 2002. Fieldwork in Uganda and Benin was completed during
     March 2002, and fieldwork in Tanzania and Senegal was completed from
     April to May 2002.

     Methodology

     In order to achieve the objectives of this audit, we met with ADF officials in
     Washington and CLO/Partner representatives in four African countries. In
     addition, we conducted site visits to 18 active grantees, observed their
     project’s operation and interviewed grantee representatives. We interviewed
     auditors at five local firms that had been responsible for audits of grants
     within our sample. In addition, we completed the following steps:

     •	 reviewed the audit findings from previous OIG audit reports;

     •	 reviewed and documented applicable ADF policies for selecting,
        monitoring, and auditing grants;

     •	 evaluated documents from CLO and ADF grant files, including project
        papers and feasibility studies, to determine if the selection process was
        consistent with ADF polices;

     •	 verified, based on source documents and grantee records, performance
        and financial data included in grantee progress reports;

     •	 determined whether major capital assets had been properly purchased and
        controlled;

     •	 obtained and reviewed CLO monitoring reports on file in Africa and on
        file at ADF, as well as the progress reports submitted by each grantee in
        our sample;

     •	 obtained and reviewed travel documents and trip reports by ADF
        Regional Directors and Regional Managers, and verified reported project
        status;

     •	 evaluated whether or not projects were meeting objectives, using as a
        materiality threshold the expectation that projects would meet at least 60
        percent of their targets for production, revenue and profit;

     •	 reviewed credentials and qualifications of accounting firms for
        conformance with ADF policies;



38
•	 reviewed workpapers and audit reports for conformance to ADF
   requirements and compliance with quality control standards;

•	 tested the 2002 audit universe and audit level against data available in the
   ADF project database;

•	   verified follow-up of audit recommendations for the projects in our
     sample (including on-site verification); and

•	 evaluated 13 CLO audits by the ADF Internal Auditor for conformance
   with applicable audit standards.




                                                                             39
     This Page Intentionally Blank




40
                                                                                          Appendix II



     Management
     Comments




January 31, 2003


MEMORANDUM
TO                 :     IG/A/PA, Dianne L. Rawl

FROM               :     Nathaniel Fields, ADF President

SUBJECT            :      Audit of the Awarding and Monitoring of Grants by the African
                          Development Foundation (Report No. 9-ADF-03-00X-P)                       .


 Please find below the African Development Foundation’s (ADF’s) response to the subject audit
 report. We have keyed our responses to the eleven recommendations in the report.

 You will notice that in most instances, ADF has initiated actions consistent with the report’s
 recommendations. This is because over the last two years, ADF has engaged in a major
 restructuring of its administrative and program operations to address some of the issues discussed in
 the report. For example, since 2000 ADF has made a concerted effort to enhance its economic and
 financial analysis expertise, and hence improve the quality of project proposal development and
 review. We have adopted more stringent guidelines for project design and monitoring. In addition,
 based on an intensive self-assessment of its grant financial management policies and procedures in
 2002, ADF will implement a more comprehensive financial management program for grants and
 cooperative agreements, of which audits are an important component.

 The audit was performed during a transitional period for ADF and unavoidably, for the most part,
 covers operations during the pre-transition state. Last fiscal year, we witnessed measurable
 improvements from our piloting of new draft policies, procedures, and guidance that the audit could
 not have captured. With the adoption and implementation of these policy and procedures, we
 expect to see even greater returns to performance this fiscal year and beyond.

                                                                                                   41
We appreciate the time and attention the Office of the Inspector General (OIG) has devoted to this
audit.


ADF Responses to OIG Report No. 9-000-03-00X-P


Recommendation 1: We recommend that the African Development Foundation develop
procedures that require that staff members who have been trained to evaluate the economic
assumptions of project proposals participate in project development and reviews.

ADF Position: We concur.

Discussion: ADF has begun implementation of a comprehensive plan for strengthening economic
appraisal of project proposals at the identification, development, review, and implementation
stages. This plan focuses on enhancing human resources and strengthening procedures. We wish
to note that the projects covered in the audit were approved before this plan went into
implementation.

1.1.   Project Proposal Review

Calendar year 2000 was pivotal in the Foundation’s transition from a strategic focus on social
impact to income generation. One reason for this is ADF’s recruitment of the first two of its cadre
of economists. Each individual recruited for a program-related position since then has expertise in
economic and/or financial analysis. Currently, five of the fourteen Washington staff that performs
program-related functions has economic and/or financial expertise. As evidenced by project review
memoranda, since late 2000 project review groups have increasingly scrutinized proposals for their
economic viability.

By March 31, 2003, ADF will issue revised procedures for review of project proposals. Under the
new procedures, only a properly constituted Project Discussion Group (PDG) will be able to
conduct the formal review of a project proposal and make a recommendation on whether to fund a
proposal. A properly constituted PDG will require the participation of the individuals with
expertise in economics and finance, in addition to individuals with expertise in environment/natural
resources management, monitoring and evaluation, the relevant sector or technical area, e.g., micro
and small enterprise development, trade and investment, HIV/AIDS.

The new procedures will set out requirements for issue papers, the PDG meeting agenda, and the
PDG review memorandum. These requirements will help to ensure that review committees devote
adequate attention to economic and other project viability issues. For instance, PDG members will
formulate issues papers in terms of questions pertinent to project viability, including economic
viability. The PDG agenda will be structured to ensure adequate discussion of economic and other
feasibility issues. The PDG memorandum will report the results of the meeting by issue area,
stating specifically if there were economic, financial, technical, social, environmental,
legal/regulatory, or group capacity issues, and if so, discussing the issues.

42
1. 2   Project Development and Implementation

In consultation with the Foundation’s staff, Partner organizations provide technical expertise to
applicants during proposal development and to grantees during project implementation. While all
Partners have sufficient financial expertise on their staffs, some do not have the requisite economic
expertise. By the end of the current Fiscal Year, each Partner will have the requisite economic
expertise among its staff or will have entered into a long-term arrangement for the assistance of
external expertise in economics.

Partner organizations will be expected to remain current on national and regional economic issues
in their countries to facilitate project development and advise grantees during implementation. In
program countries where ADF has trade and investment programs, Partners must also have
adequate knowledge of international economic issues, as they relate to the program.

In 2002, ADF adopted the logical framework (LogFrame) as an analytical tool to guide project
proposal development and the formulation of monitoring and evaluation plans. ADF trained its
Washington staff and the Partner staffs in the use of the LogFrame. The LogFrame specifically directs
project designers (and reviewers) to identify and assess the soundness of project assumptions,
including economic ones.

By February 28, 2003, ADF will issue new guidelines for the presentation of project proposals
(PPs). The guidelines will require project proposals to provide the analytical underpinning for the
LogFrame. They will require a separate analysis of the economic feasibility of the proposed project.

1.3    Project Screening.

In addition to taking actions that will ensure reliable economic appraisal at the proposal development
and review stage as stipulated in the Inspector General’s (IG’s) Recommendation 1, the Foundation
has extended the requirement for economic appraisal the proposal to the screening process, i.e., the
first stage of the award process. ADF has hired Field Representatives in twelve countries. Training
and demonstrated expertise in economic and financial analysis is a mandatory requirement for those
selected as ADF Field Representatives. One of the representatives’ major functions is to conduct the
initial screening of grant applications. New screening criteria, which ADF will issue by March 31,
2003, will include questions on early indicators of economic viability.

Recommendation 2: We recommend that the African Development Foundation develop
guidance to help its staff members recognize potential environmental issues when reviewing
project proposals and develop procedures to ensure that staff members have verified that
environmental analyses have been performed whenever warranted and that all issues of
concern have been addressed.

ADF Response: We concur.

Discussion: ADF is revising its environmental policy and developing new procedures and
guidelines to assess the environmental implications of project proposals. These guidelines will be
issued along with the revised guidance for project development in February 2003. Since 2000,
                                                                                                         43
ADF has included conditions precedent to disbursement in its grant agreements, as appropriate, that
assist the Foundation complies U.S. Environmental Protection Agency and international standards
for protection of the environment, as appropriate.

Recommendation 3: We recommend that the African Development Foundation implement
revised policies to evaluate grantee progress toward grant objectives and facilitate prompt
interventions to improve project results or terminate (if necessary) non-performing grants
and provide the Office of Inspector General with documentation of the results of the first such
portfolio review to take place after issuance of this report.

ADF Response: We concur.

Discussion: By March 31, 2003, ADF will have in place a new policy to assess grantee progress
toward grant objectives and facilitate prompt intervention. This policy relies on effective
monitoring of project implementation and portfolio reviews.

3.1      Project Monitoring

Grantees will submit a quarterly Progress/Activity Report (PAR) to the ADF Field Representatives
with a copy to the ADF Partners. This report has two components:

      •	 A description of the grantee’s activities during the quarter. Specifically, the report will
         discuss actions the grantee took to address problems or issues identified earlier by the
         grantee, the Partner, or ADF, and the results of the actions taken. In addition, the report will
         discuss contact with or visits by the ADF Representative or Partner; and
      •	 An assessment of grantee progress toward meeting the objectives of the grant. This will
         include a report on the quantifiable measures and indicators established in the LogFrame, a
         narrative discussion of the progress indicated by the measures and indicators, and a
         discussion of other progress. The report will include a discussion of any problems and
         issues the grantee encounters and proposed solutions.

In addition, the Partners and ADF Field Representatives will conduct routine visits to project sites:

      •	 During project start up, the Partner will finalize a monitoring plan. This plan will call for
         two to three site visits during the first year of each project and one to two visits annually for
         subsequent years. The purpose of the site visits is to provide advice and assistance on
         project implementation to the grantee, identify any issues or concerns the grantee needs to
         address and discuss alternative solutions, and ensure the project is well managed. The site
         visits consist of meetings with the grantee’s members and management, assessment of the
         physical plant and equipment, assessment of any technical assistance provided, performance
         of contractors, and performance of the grantee’s monitoring and evaluation committee on
         the self-assessment activities (in projects with grantee monitoring and evaluation
         committees).
      •	 The ADF Field Representative or ADF headquarters staff will visit each project annually, at
         a minimum. These visits will focus on compliance and verification issues, including

44
         verifying the accuracy of grantee quarterly progress reports (in addition to financial
         management and accountability issues). The individuals making the site visits will prepare
         reports identifying issues, concerns, and follow-up actions required.

3.2      Grant Portfolio Reviews

In October 2002, ADF instituted a new policy that calls for annual review of the project portfolio in
each program country. The first such review will take place in June 2003. The review will focus
on implementation issues, progress towards project objectives, and the results of project
monitoring. The results of the portfolio review group’s analysis will place a project in one of the
following four categories.

      •	 Performing Projects. These are projects that are making satisfactory progress achieving
         their objectives and comply with all requirements. They will be subjected to routine
         monitoring.
      •	 Watch Projects. These projects are not making expected progress toward their objectives, or
         have minor compliance or implementation problems. Projects on the Watch List will
         receive a heightened level of monitoring. The Field Representative or Washington staff will
         prepare a remediation plan identifying the problem(s) and setting out a plan for corrective
         action. The office preparing the remediation plan will submit a quarterly report to the ADF
         President on the status of the remediation.
      •	 At Risk Projects. These are projects that have serious problems. While ADF has yet to
         develop specific criteria for identifying these projects, sample criteria may include the
         following: (a) financial or progress report is more than 60 days late; (b) failure to reach 75
         percent of the project’s targets for two or more consecutive quarters; and (c) reported or
         apparent management or group cohesion problems. ADF will subject these projects to more
         intensive monitoring and reporting than Watch Projects, and will require the implementation
         of certain activities to address the problems identified. In addition, ADF will hold a special
         portfolio review each quarter for projects on the “At Risk” list.
      •	 Proposed Terminations. The portfolio review group may recommend termination of a
         project. This may result from a variety of circumstances, such as the following: (1) theft of
         project resources; (2) misrepresentation of a material fact by the grantee; (3) breach of
         material terms and conditions of the grant agreement; (4) inability of the grantee to
         implement the project; and (5) it becomes apparent that the project, as designed, is not
         viable and cannot be made viable.

Recommendation 4: We recommend that the African Development Foundation establish
policies requiring periodic evaluation of the performance indicators developed for each
project to ensure that all indicators are necessary and relevant.

ADF Response: We concur.

Discussion: The revised policy on monitoring and evaluation that takes effect on March 31, 2003
will require routine evaluation of project performance indicators during portfolio reviews, the


                                                                                                    45
annual program impact (API) exercise, and any time a project is amended. In addition, the review
of quarterly progress reports may trigger the evaluation of project indicators.

Recommendation 5: We recommend that the African Development Foundation provide
grantees appropriate training to accurately maintain and report performance data.

ADF Response: We concur, but with qualification.

Discussion: It is a long-standing ADF policy to train all new grantees on maintaining and reporting
performance data. Under this policy, the Partner’s (and prior to that Country Liaison Officer’s)
staff trains the grantee’s monitoring and evaluation committee in performance reporting. However,
as indicated on page 25 of the OIG’s report, ADF has determined that the reporting format is too
complex for most grantees. This, we believe is the root problem that needs attention.
Consequently, we will issue a revised reporting format by March 31, 2003. The Partners will
continue training grantees in performance reporting. Through review of progress reports and site
visits the Field Representatives will continuously assess the grantees performance reporting, and
make recommendations on a course of action when reporting is not satisfactory.

Recommendation 6: We recommend that the African Development Foundation establish a
minimum threshold for the value of grants that will be audited and establish annual audit
plans to ensure that, at a minimum, all grants that exceed the threshold are audited at an
appropriate point during the grant cycle.

ADF Response: We concur, but with qualification.

Discussion: ADF’s new policy for audit selection becomes effective on February 1, 2003. This
policy eliminates the minimum threshold criterion. In accordance with its grant financial
management program, ADF will include each grant in the audit universe at the time of grant award.
In addition, any grant that was active on February 1, 2002 will be included in the audit universe.
This means all grants, regardless of their value, will undergo either an independent external audit or
an ADF internal audit at the appropriate time during their life cycle. For each grant, ADF will
compare the value added of an independent external audit to that of an ADF internal audit to
determine which is warranted.

Recommendation 7: We recommend that the African Development Foundation provide its
annual audit plan to the Office of the Inspector General by October 1 of each fiscal year.

ADF Response: We concur.

Discussion: For fiscal year 2004 and beyond, ADF will provide an annual audit plan to the Office
of the Inspector General by October 1. We will present the fiscal year 2003 plan by May 31, 2003.
The plan will extract information from the grant audit universe, using established evaluation and
selection criteria.




46
Recommendation 8: We recommend that the African Development Foundation establish
specific policies and procedures for an audit quality control program designed to ensure that
audits are completed in accordance with ADF requirements and appropriate audit standards.

ADF Response: We concur.

Discussion: By May 31, 2003, ADF will issue revised policies and procedures for its audit quality
control program. These new directives will help ensure that ADF’s audits are conducted in
accordance with ADF requirements and appropriate audit standards. In addition, ADF is
reorganizing its management expertise to make certain that its staff expertise is deployed as to
promote effective implementation of the new policies and procedures.

Recommendation 9: We recommend that the African Development Foundation develop
procedures to ensure that audits of Partner organizations are included in the Foundation’s
annual audit plan.

ADF Response: We concur.

Discussion: In accordance with ADF’s comprehensive financial management of grant and
cooperative agreement policy that takes effect on March 31, 2003, each Partner organization will be
included in the grant audit universe at the time of award. Since the Partners must undergo an
annual independent audit, they will appear yearly in the Foundation’s annual audit plan.

Recommendation 10: We recommend that the African Development Foundation contract
with qualified U.S. or local accounting firms to conduct audits of funds provided to Partners
and that these audits be subject to consistent and appropriate quality control review by the
Foundation’s Internal Auditor.

ADF Response: We concur.

Discussion: ADF requires Partner organizations to contract with firms on USAID’s list of “Audit
Firms Eligible to Perform Non-Federal Financial Audits.” Partner organizations in countries not
covered by the USAID referral list must get approval from ADF before contracting with an audit
firm. This policy was implemented in January 2003.

By March 31, 2003, ADF will issue revised procedures for audit quality control reviews. These
procedures will incorporate applicable standards of generally accepted government auditing
standards (GAGAS), and when applicable generally accepted accounting standards (GAAS). By
April 2003, ADF will redeploy its audit management Washington staff to ensure the quality of the
audits.

Recommendation 11: We recommend that the African Development Foundation establish
policies and procedures for an audit follow-up system that is in compliance with the Office of
Management and Budget Circular A-50 requirements, including the semi-annual reporting of



                                                                                                47
audit recommendation status. These procedures should ensure that a copy of these semi­
annual reports be provided to the Office of the Inspector General.

ADF Response: We concur with the recommendation, but disagree with the findings.

Discussion: The ADF audit follow-up program complies with the Office of Management and
Budget (OMB) Circular A-50. In August 2000, ADF established and implemented an audit follow-
up system in compliance with OMB Circular A-50. ADF designated a staff member to manage the
audit follow up process and provide semi-annual reports to the head of the agency. Based on the
Office of the Inspector General’s FY 2002 Chief Financial Officer audit of financial statements,
ADF is in compliance with OMB Circular A-50. However, the follow-up process does not cover
audits of grants and cooperative agreements. ADF agrees to broaden the scope of its audit
procedures to include these audits.




48
           SUMMARY ADF RESPONSE TO AUDIT REPORT 9-000-03-00X-9




No. OIG Recommendation           ADF Response    Corrective Action       Estimated
                                                                        Final Action
                                                                           Date

1   We recommend that the        Concur         Revised procedures      March 31,
    African Development                         for review of project   2003
    Foundation develop                          proposals.
    procedures that require
    that staff members who                      All Partners acquire    September
    have been trained to                        reliable access to      30,
    evaluate the economic                       economic expertise      2003
    assumptions of project
    proposals participate in                    Revised proposal
    project development and                     screening criteria      March 31,
    reviews.                                                            2003



2   We recommend that the        Concur         Revised                 February 28,
    African Development                         environmental           2003
    Foundation develop                          policy, procedures,
    guidance to help its staff                  and guidelines
    members recognize
    potential environmental
    issues when reviewing
    project proposals and
    develop procedures to
    ensure that staff members
    have verified that
    environmental analyses
    have been performed
    whenever warranted and
    that all issues of concern
    have been addressed.




                                                                                       49
     We recommend that the        Concur         Revise policy on     March 31,
3    African Development                         assessment of        2003
     Foundation implement                        grantee progress
     revised policies to                         toward grant
     evaluate grantee progress                   objectives
     toward grant objectives
     and facilitate prompt
     interventions to improve
     project results or
     terminate (if necessary)
     non-performing grants
     and provide the Office of
     Inspector General with
     documentation of the
     results of the first such
     portfolio review to take
     place after issuance of this
     report.


4    We recommend that the       Concur          Revised monitoring   March 31,
     African Development                         and evaluation       2003
     Foundation establish                        policy
     policies requiring periodic
     evaluation of the
     performance indicators
     developed for each project
     to ensure that all
     indicators are necessary
     and relevant

5    We recommend that the       Concur, with    Revised grantee      March 31,
     African Development         qualification   reporting format     2003
     Foundation provide
     grantees appropriate
     training to accurately
     maintain and report
     performance data.




50
6   We recommend that the        Concur, with    Revised audit          February 1,
    African Development          qualification   selection policy       2003
    Foundation establish a
    minimum threshold for
    the value of grants that
    will be audited and
    establish annual audit
    plans to ensure that, at a
    minimum, all grants that
    exceed the threshold are
    audited at an appropriate
    point during the grant
    cycle.

7   We recommend that the        Concur          Prepare annual audit   May 31,
    African Development                          plan and submit to     2003 (FY
    Foundation provide its                       OIG                    2003 plan)
    annual audit plan to the
    Office of the Inspector                                             October 1,
    General by October 1 of                                             2003 (FY
    each fiscal year.                                                   2004 plan)


8   We recommend that the        Concur          Revised audit quality May 31,
    African Development                          control policies and  2003
    Foundation establish                         procedures
    specific policies and
    procedures for an audit
    quality control program
    designed to ensure that
    audits are completed in
    accordance with ADF
    requirements and
    appropriate audit
    standards.
                                                 Revised policy to      March 31,
9   We recommend that the        Concur          include Partner        2003
    African Development                          agreements in audits
    Foundation develop                           universe
    procedures to ensure that
    audits of Partner                            Establish              March 31,
    organizations are included                   comprehensive          2003
    in the Foundation’s                          financial
    annual audit plan.                           management policy

                                                                                      51
10   We recommend that the        Concur              Policy on eligible      Implemented
     African Development                              firms for audit of      January 2003
     Foundation contract with                         Partner organizations
     qualified U.S. or local
     accounting firms to
     conduct audits of funds
     provided to Partners and
     that these audits be
     subject to consistent and
     appropriate quality
     control review by the
     Foundation’s Internal
     Auditor.

11   We recommend that the        Concur with         Include audit of        May 31,
     African Development          recommendation,     grants and              2003
     Foundation establish         but disagree with   cooperative
     policies and procedures      finding             agreements in the
     for an audit follow-up                           OMB Circular A-50
     system that is in                                report.
     compliance with the
     Office of Management                             Revised procedures      March 31,
     and Budget Circular A-50                         for quality control     2003
     requirements, including                          reviews
     the semi-annual reporting
     of audit recommendation
     status. These procedures
     should ensure that a copy
     of these semi-annual
     reports be provided to the
     Office of the Inspector
     General.




52
